 Amtrak Office of the Inspector General




Oversight of ARRA-Funded Initiatives


       PROGRAM CHARTER




                                    April 15th, 2009
                   Amtrak - Office of the Inspector General
            Oversight of ARRA-Funded Initiatives – Program Charter

Introduction
The American Recovery and Reinvestment Act (ARRA) of 2009 was enacted by Congress to
achieve the following objectives:

    (1) To preserve and create jobs and promote economic recovery.
    (2) To assist those most impacted by the recession.
    (3) To provide investments needed to increase economic efficiency by spurring technological
        advances in science and health.
    (4) To invest in transportation, environmental protection, and other infrastructure that will
        provide long-term economic benefits.
    (5) To stabilize state and local government budgets, in order to minimize and avoid
        reductions in essential services and counterproductive state and local tax increases.

As stated under Title XII (H.R. 1-95) of the Act, “$5,000,000 shall be made available for the
Amtrak Office of Inspector General and made available through September 30, 2013”. This
funding is intended to provide the Amtrak OIG with additional resources required to provide
adequate oversight of Amtrak’s ARRA-funded programs, as defined in both the Inspector General
Act of 1978 and the Implementing Guidance for the American Recovery and Reinvestment Act of
2009, issued by the Office of Management and Budget during March / April, 2009.

Given ARRA’s high public profile and the impact that this Act will have on the American economy,
our office fully understands the level of public scrutiny that can be expected. Over the upcoming
four and a half years, our office will utilize its funding allocation to:

    (1) Establish a team of highly qualified auditors, investigators, and subject matter experts to
        successfully execute our mandate under the ARRA legislation.
    (2) Provide up-front advice to Amtrak with regard to procurement practices, fraud prevention,
        risk management, program controls, and other topics that we believe will assist the
        company in the successful completion of ARRA-funded programs and projects.
    (3) Perform risk management assessments on Amtrak’s portfolio of ARRA-funded programs,
        and prioritize our audit activities on the basis of the resulting risk profiles. This will also
        include the examination of past audit and investigation results as part of the risk
        assessment process.
    (4) Execute interim and final audits of ARRA-funded programs in accordance with standard
        audit practices. These audits will take place from the standpoints of fiscal management,
        program controls, reporting, and risk management, among others.
    (5) Perform investigations as necessary.
    (6) Provide all of the administrative functions required by ARRA-funded programs, as
        established by the Office of Management and Budget.




Amtrak OIG’s Approach to ARRA Oversight

OIG Organizational Setup
Transparency, full disclosure, and the use of well-established management practices regarding all
ARRA-based initiatives will be instrumental in achieving the goals that the Act has set forth. Our
office intends to set up a dedicated core team of experts whose goal will be to focus exclusively
on Amtrak’s ARRA-funded programs. This team will be supported by other individuals from our



                                                2 of 5
                   Amtrak - Office of the Inspector General
            Oversight of ARRA-Funded Initiatives – Program Charter
audits and investigations divisions as the need arises. The ARRA team will be organized as
shown below:




To maintain pace with current events and approaches toward ARRA oversight, our team will
become an integral part of the OIG community’s discussion groups. As oversight practices evolve
within the community, the intent is for our team to share those practices for potential integration
into our own set of approaches. We will also work closely with the Recovery, Accountability, and
Transparency Board as well as with the Council of Inspectors General on Integrity and Efficiency
(CIGIE).


Overall Program Assessment
As Amtrak begins to establish its ARRA-funded program portfolio, infrastructure, approaches and
management team, our department will attempt to work in tandem with the company to help it
avoid early pitfalls. Between April 2009 and July 2009 we intend to accomplish the following:

    (1) Assess the eligibility of each project and program put forward by Amtrak for ARRA
        funding. This assessment will be grounded on both the ARRA legislation text itself and on
        the ARRA guidelines issued by the Office of Management and Budget. Some of the key
        factors our office will examine are:
            a. If the ARRA project or program is supporting or supplanting a planned or existing
                 project / program initiative
            b. If the project or program complies with both the legislative restrictions and
                 guidelines that have been established for Amtrak funding under ARRA and the
                 grant agreement between Amtrak and the FRA.
            c. If the nature of the project or program complies with capital funding standards as
                 defined under Generally Accepted Accounting Principles (GAAP).

    (2) Review the grant agreement between the National Railroad Passenger Corporation and
        the Federal Railroad Administration to ensure that the grant agreement supports the



                                              3 of 5
                   Amtrak - Office of the Inspector General
            Oversight of ARRA-Funded Initiatives – Program Charter
        terms of both the ARRA legislation and the grant guidelines established by the Office of
        Management and Budget

    (3) Cross-reference past audits and investigations with ARRA-funded programs being put
        forward by Amtrak, and forewarn the company of related problems and pitfalls that have
        been experienced in the past. The intent is to advise the company to take active
        measures to prevent these problems from recurring.

    (4) Assess Amtrak’s approach toward procurement, contracting, and contract administration
        for ARRA-funded projects and programs. Particular attention will be paid to OMB
        guidelines and legislative criteria such as applicable “Buy America” considerations, fixed-
        price contracting, the establishment of ARRA reporting guidelines within the contracts,
        and measures being taken to both mitigate fraud and to ensure that the contract terms
        are being enforced.

    (5) Review of the management controls that are being established for ARRA-funded projects
        and programs. The intent is to give reasonable assurances that the programs’ objectives
        can be realized within the timelines and budgets established by the ARRA legislation and
        grant agreement..




ARRA Audits
Our office intends to focus the majority of its audits on programs that we consider to have high
risk levels in terms of:

   Ability to achieve its objectives within the budget and time frames proscribed by the ARRA
    legislation
   Ability to achieve ARRA objectives
   Program size and complexity
   Availability of skilled management resources and subject matter experts
   Monitoring and control
   History of material weaknesses
   Weak scope definition
   Ability to measure program results against target
   Potential for waste, fraud, or abuse

To identify those programs that require greater scrutiny, we will conduct or commission the
execution of a series of risk evaluations, then determine our audit needs in part on the basis of
the evaluation results.

Our audit approach will include but not be limited to the following considerations:

    (1) During the course of program execution, we will review ARRA documents and reports
        that Amtrak will be submitting as part of its ARRA commitments.
    (2) Where possible, we will conduct audits relatively early during the program’s life cycle. Our
        objective is to assist Amtrak in discovering management, ARRA compliance and other
        issues early on during the program to allow the company time to adjust and remedy
        accordingly while there is still an opportunity to do so.
    (3) At OIG’s discretion, ARRA programs may be subject to multiple audits, which can take
        place both during the course of the program execution and once the program has been
        completed and closed out.
    (4) Audits that take place during program execution will have the following objectives, among
        others:



                                               4 of 5
                Amtrak - Office of the Inspector General
         Oversight of ARRA-Funded Initiatives – Program Charter
         a. Assess compliance against ARRA and OMB standards for documentation and
              reporting, procurement, and contract award
         b. Assess compliance against Amtrak-established program management, contract
              management, and financial management procedures
         c. Assess the adequacy of the work force assigned to the program
         d. Assess the cost and time estimates established for the program
         e. Assess the risk management measures that have been established
         f. Identify any discrepancies between what has been reported to FRA / OMB and
              the program’s actual status
         g. Assess program compliance against the Amtrak / FRA grant agreement
         h. Provide recommendations for any remedial actions
  (5) Audits that take place after program closeout will have the following objectives:
         a. Comparison of what has been achieved vs. what was detailed in the scope
              statements
         b. Financial analysis and audit of all program components
         c. Evaluation of billing and payments.
         d. Assessment of all contracts with third parties and to what extent Amtrak has
              received its contractual deliverables
         e. Assessment of to what extent the program has achieved its anticipated benefits,
              (where applicable, based upon pre-defined program measurement criteria).




Key Milestones

                  Milestone Description                           Completion Date
 Submit final version of OIG Recovery Act plan                May 30, 2009
 Begin interim audits of key Amtrak programs                  June 1, 2009
 Complete assessment of Amtrak’s program-specific             June 15, 2009
 Recovery Act plans
 Complete assessment of Amtrak’s tools, methods, and          July 31, 2009
 procedures for ARRA program management
 Complete risk assessment of key Amtrak programs              August 31, 2009
 Complete interim audits of Amtrak’s ARRA programs            May 31, 2010
 Begin post-completion audits of Amtrak’s ARRA                March 1, 2010
 programs
 Complete post-completion audits of Amtrak’s                  September 30, 2013
 programs




                                          5 of 5
